Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Follow-Up Review of the Medicaid Drug Rebate Program in Alabama
August 21, 2008 | Audit A-04-07-07024
Executive Summary
In a follow-up audit of Alabama's Medicaid drug rebate program, we found that, as of June 30, 2006, the State agency implemented the recommendations from our previous audit related to the collection of interest and the utilization of write-off criteria for dispute resolution.  In addition, the State agency established controls over collecting rebates on single source drugs administered by physicians.  Therefore, we did not offer any recommendations.
Complete Report
Download the complete report (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS